DEPARTMENT OF THE ARMY
UNITED STATES ARMY LEGAL SERVICES AGENCY
DEFENSE APPELLATE DIVISION
9275 GUNSTON ROAD
FORT BELVOIR, VIRGINIA 22060-5546

January 5, 2021
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re: No. 20-301, Hennis v. United States — CAPITAL CASE
Dear Mr. Harris:
Please find enclosed ten (10) copies of a letter to clarify statements in
Petitioner’s Reply Brief.
An electronic copy of the enclosed letter has been sent to the Solicitor General’s
office, as well as three physical copies which were mailed to the Solicitor General of
the United States, Room 5614, Department of Justice, 950 Pennsylvania Avenue
Northwest, Washington DC, 20530-0001, counsel for the Respondent herein.
Please contact me at (703) 693-0656 or timothy.g.burroughs.mil@mail.mil if you
have any questions concerning this matter.
Sincerely,

Timothy G. Burroughs
Major, U.S. Army
Counsel for Petitioner

